Tl

C@OQCKLE

2311 Douglas Street Legal Brief E-Mail Address:
Omaha, Nebraska 68102-1214 ga = ae contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

LEE WENDELL LODER, PETITIONER
v.
ICEMAKERS, INC.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of November, 2020, send
out from Omaha, NE 1 package(s) containing 1 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LEE WENDELL LODER
Attomey For Petitioner
Loder, PC,
P.O. Box 13545
Birmingham, AL 35202
loder@loderpe.com
(205) 326-0566

Subscribed and swom to before me this 10th day of November, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

= Ondeaw-h, Chl

Notary Public Affiant

 

 

40337
Mr. Walter McArdle, Esq
Spain Gillon, LLC

505 20th Street N., Ste. 1200
Birmingham, AL 35203
(205) 581-6295
wmeardle@spain-gillon.com
Attorney for Icemakers, Inc.
